Supreme Court, U.S.
FILED

No.

AUG 2 3 2021

a/-33/

-OFFICE-OF-THE 'CLERK'

IN THE
SUPREME COURT OF THE UNITED STATES

ALICE GUAN (YUE GUAN),
Applicant,
v.
Bing Ran
Respondent.

On Petition for Writ of Certiorari to the Supreme Court of Virginia

Petition for Writ of Certiorari
Alice Guan, or Yue Guan, pro se
#286
11654 Plaza America Drive
Reston, VA 20190
617-304-9279
AliceGuan2021@ginail.com

i

QUESTION PRESENTED FOR REVIEW
Respondent sought injunction against Petitioner seeking to void their contract
that contains their constitutionally and federally protected property and personal
rights and seeking to restrain Petitioner from physical presence, from speech, and
from association in the company they co-own, seeking to remove $2.3M loan
Petitioner borrowed per IRS code from Petitioner’s own fund that was stored at the
company. Petitioner sough Declaratory Judgement to determine whether the
contract is enforceable after Respondent resigned and sought injunctive relief
against Respondent to prevent him from interfering with the company
management. Circuit Judge denied Petitioner’s pleadings, ruled Petitioner become
a minority owner after removing 2% of her ownership without notice and without
due process and granted Respondent’s injunctions against Petitioner. Supreme
Court of Virginia affirmed and ruled, in one paragraph containing 4 lines of 49
word, that there is no error in the lower court’s ruling. The questions presented are:
1. Whether state courts violated Petitioner’s federal rights by removing her own
property of 2% company ownership and $2.3M cash without notice and due
process, without right to equal protection and substantive due process.
2. Whether state courts erred in denying due process for declaratory judgement
relief and for removing contract that is based on state laws and protected by
federal law.

ii

3. Whether state courts violated Petitioner’s 14th and 1st Amendment rights by
restraining Petitioner’s freedom of speech, movement and associations, and
discriminating her in her workplace.
4. Whether the state supreme court violated Petitioner’s constitutional rights,
equal protection right and right to due process by affirming lower court
decision and rule by merit that there is no error in lower court’s decision
without offering any opinion.

iii

RELATED CASES1234

Alice Guan (Yue Guan) v. Bing Ran, CL07003662, Alexandria City Circuit
Court, Judgement Entered May 22, 2019.
Alice Guan (Yue Guan) v. Bing Ran, Case 200995, Supreme Court of Virginia,
Judgement Entered January 11, 2021, Petition for Rehearing En Banc field on
January 25, 2021, Order Denying Petition for Rehearing Entered March 26, 2021.

i

A case relating to individuals’, state officials’ and organizations’ bribery (which conducts were
revealed in December 2019 in Protorae Law PLLC office space in Tysons Corner, VA) and other
wrongful conducts and seeking relief from those conducts was filed in the IN THE UNITED STATES
DISTRICT COURT FOR THE EASTERN DISTRICT OF VIRGINIA, Civil Case No. L21-CV-752RDA-TCB, DEFENDANTS GARY BELL, SERGEY KATSENELENBOGEN AND JEN KIM, the
Honorable James C. Clark, Judge of the Alexandria Circuit Court; the Alexandria Circuit Court; the
Honorable Donald W. Lemons, Chief Justice of the Supreme Court of Virginia; the Honorable Cleo E.
Powell, the Honorable William C. Mims, the Honorable Stephen R. McCullough, and the Honorable
S. Bernard Goodwyn, Justices of the Supreme Court of Virginia; the Honorable. Lawrence L. Koontz,
Jr., the Honorable Leroy F. Millette, Jr., and the Honorable Charles S. Russell, Senior Justices of the
Supreme Court of Virginia; and the Supreme Court of Virginia sought motions to dismiss. Proposed
responses in opposition to motions to dismiss are in the Appendix accompanying this Petition (17-A,
39-A). Case noted that any Justices proven not involved in bribery will be dismissed. Case is
motioned for leave to add parties including: Protorae Law PLLC, Brian Chandler, Scott Dinner, John
Monica, and Michael Stamp.
2 As explained in 17-A and 39-A, Civil Case No. l:21-CV-752-RDA-TCB is not to seek appellant
review of state court order, but this Petition is. Petitioner did inform Civil Case No. L21-CV-752RDA'TCB that this Petition will be filed, and stated that in Civil Case No. L21-CV-752-RDA-TCB,
injuries may be ratified, acquiesced or left unpunished by state court decision without being
produced by the state court judgement as in “A plaintiffs injury at the hands of a third party may be
“ratified, acquiesced in, or left unpunished by” a state-court decision without being “produced by” the
state-court judgment. Hoblock v. Albany Cty. Bd. ofElections, 422 F.3d 77, 88 (2d Cir. 2005). Such is
the case here.” Hulsev v. Cisa. 947 F.3d 246, 250 (4th Cir. 2020).
3 In Civil Case No. l'21-CV-752-RDA-TCB, all official defendants are represented by Virginia
Attorneys General’s Office. Michael Stamp since 2019 has become a deputy director at the
Department of Justice which oversees the FBI.
4 Corruption cited in Civil Case No. i:21-CV*752-RDA-TCB has been reported to the FBI. Virginia
Attorneys General Office has full knowledge of the corruption since it is currently defending the
official defendants in the case. It is unclear if any investigation will be carried out independent from
Civil Case No. L21-CV-752-RDA-TCB. Discovery in Civil Case No. L21-CV-752-RDA-TCB is yet to
begin.

iv

TABLE OF CONTENTS

Page
QUESTION PRESENTED FOR REVIEW

1

RELATED CASE

111

TABLE OF CONTENT

iv

TABLE OF AUTHORITIES

Vlll

1

PETITION FOR WRIT OF CERTIORARI

1

OPINIONS BELOW

1

BASIS FOR JURISDICTION IN THIS COURT

1

CONSTITUTIONAL AND STATUTORY PROVISIONS AT ISSUE

INTRODUCTION

STATEMENT OF THE CASE

Facts and Procedure History

4

7

11

V

15

REASON FOR GRANTING THE PETITION

A. Virginia Supreme Court have decided an important question of federal law
that has not been, but should be, settled by this Court (Sup. Ct. R. 10(c))..16
B. Supreme Court of Virginia has decided several important federal questions in
a way that conflicts with relevant decisions of this Court (Sup. Ct. R. 10(c)),
and Virginia Supreme Court has decided several important federal questions
in a way that conflicts with the decision of another state court of last resort or
20

of a United States court of appeals (Sup. Ct. R. 10(b)).

CONCLUSION

35

vi

TABLE OF CONTENTS - Continued

Page
APPENDIX

Judgment, Supreme Court of Virginia (January 11, 2021)

1-A

Order Denying Petition for Rehearing, Supreme Court
of Virginia (March 26, 2021)

......................................

2-A

Judgment, Alexandria Circuit Court (May 22, 2019)

3-A

Order Alexandria Circuit Court (February 27, 2019)

7-A

Contract Between Petitioner and Respondent

9-A

Amended Order, Alexandria Circuit Court (May 13, 2016)

13-A

Proposed RESPONSE IN OPPOSITION TO COMMONWEALTH DEFENDANTS’
MOTION TO DISMISS (“MTD”) 1st AMENDED COMPLAINT (“1AC”), IN THE
UNITED STATES DISTRICT COURT FOR THE EASTERN DISTRICT OF
VIRGINIA, Civil Case No. l:21-CV-752-RDA-TCB (August 20, 2021).... 17-A

RESPONSE IN OPPOSITION TO DEFENDANTS GARY BELL, SERGEY
KATSENELENBOGEN AND JEN KIM’S (“EMPLOYEE DEFENDANTS”)
MOTION TO DISMISS (“MTD”) PLAINTIFF’S 1ST AMENDED COMPLAINT
(“1AC”), IN THE UNITED STATES DISTRICT COURT FOR THE EASTERN
DISTRICT OF VIRGINIA, Civil Case No. L21-CV-752-RDA-TCB (August 19, 2021)
39-A

vii

Sworn Statement by Petitioner on the Content of Her Oral Argument
in Front of a 3-Justice Panel of the Supreme Court of Virginia
Petition for Rehearing En Banc..................................................

61-A
67-A

MEMORANDUM IN SUPPORT OF DEFENDANTS GARY BELL, SERGEY
KATSENELENBOGEN AND JEN KIM’S MOTION TO DISMISS PLAINTIFFS
1ST AMENDED COMPLAINT, Case No. i:21-cv-00752 RDA-TCB...... 80-A

viii

TABLE OF AUTHORITIES
page
18

Iaccarino v. Duke, 327 F. Supp. 3d 163 (D.D.C. 2018)

18

Olivares v. Transportation Sec. Admin., 819 F.3d 454 (D.C. Cir. 2016)

20

Nelson v. Colorado (2017)
Board of Regents of State Colleges v. Roth (1972); Roth.

20
20

Stotter v. University of Texas at San Antonio (5th Cir. 2007).
Goss v. Lopez (1975).

20

Davidson v. Cannon (1986).

20

Daniels v. Williams (1986).

20
20

Mathews v. Eldridge (1976).
Goldberg v. Kelly (1970).

20

Hightower v. City of Boston (1st Cir. 2012. San Geronimo Caribe Project, Inc. v.
Acevedo-Vila (1st Cir. 2012)

20

Keener Oil & Gas Co. v. Consol. Gas Utils. Corp., 190 F.2d 985, 989 (10th Cir.
1951))
Maytag, 687 F.3d at 1081
Earle v. McVeigh. 91 U.S. 503, 23 L. Ed. 398 (1875)

22
22
23

ix

Elliott v. Board of School Trustees of Madison Consolidated Schools, 876 F.3d 926,
934-35 (7th Cir. 2017)

25
26

Speech First, Inc. v. Fenves, 979 F.3d 319 (5th Cir. 2020)

Thompson v. W. States Med. Ctr., 535 U.S. 357, 373, 122 S. Ct. 1497, 1507, 152 L.
26

Ed. 2d 563 (2002)

Kennedy v. Med. Serv. Ass'n of Pennsylvania (No. 2). 39 Pa. D. & C.2d 45, 47 (Pa.
Com. PI. 1966)

27

Wilkinson v. Austin (2005)

27

Stilwell v. City of Williams (9th Cir. 2016); Levin v. Madigan (7th Cir. 2012).,,27
McDonald v. City of Chicago (2010)
Zinermon v. Burch (1990)

27
28

Kennedy v. Med. Serv. Ass'n of Pennsylvania (No. 2). 39 Pa. D. & C.2d 45, 47 (Pa.
Com. PI. 1966)

29

Bd. of Regents of State Colleges v. Roth. 408 U.S. 564, 92 S. Ct. 2701, 33 L. Ed. 2d
30

548 (1972)
Bov Scouts of Am. v. Dale. 530 U.S. 640, 120 S. Ct. 2446, 147 L. Ed. 2d 554
(2000)

31

Christian Legal Soc. Chapter of the Univ. of California. Hastings Coll, of the L. v.
Martinez. 561 U.S. 661, 130 S. Ct. 2971, 177 L. Ed. 2d 838 (2010) —

31

Healv v. James. 408 U.S. 169, 92 S. Ct. 2338, 33 L. Ed. 2d 266 (1972)

31

X

McCabe v. Sharrett. 12 F.3d 1558 (llth Cir. 1994)

32

ESI/Emp. Sols.. L.P. v. City of Dallas. 450 F. Supp. 3d 700 (E.D. Tex. 2020)

32

Roberts v. United States Jaycees, 468 U.S. 609, 617—18, 104 S.Ct. 3244, 82 L.Ed.2d
462 (1984) Id. at 623, 104 S.Ct. 3244

31,32, 33
33

Bykofsky v. Borough ofMiddletown, 401 F.Supp. 1242, 1254 (M.D.Pa.1975)

Johnson v. City of Cincinnati. 119 F. Supp. 2d 735, 745 (S.D. Ohio 2000), affd, 310
F.3d 484 (6th Cir. 2002)

33

ESI/Emp. Sols.. L.P. v. City of Dallas. 450 F. Supp. 3d 700 (E.D. Tex. 2020)

33

Cahoo v. Fast Enterprises LLC, No. 17-10657, 2020 WL 7493103, *10, _ F. Supp.
33

3d _ (E.D. Mich. Dec. 21, 2020)
34

Swepi, LP v. Mora County, N.M., 81 F. Supp. 3d 1075, 1156 (2015)

Zavolta v. Lord, Abbett & Co., No. 2:08-cv04546, 2010 WL 686546, *5 (Feb 24, 2010)
34
Experian Marketing Solutions, Inc. v. U.S. Data Corp., No. 8:09CV24, 2009 WL
34

2902957, *6 (Sep. 9, 2009)

1

28 U.S.C. § 1257(a).
U.S. Const, amend. I

2

U.S. Const, amend. XIV

2

xi

2

U.S. Const, art. I
U.S. Const, art. Ill

2

Civil liberties

3

Title VII of the Civil Rights Act

3
3

28 U.S.C. § 2201(a)
4

28 U.S.C. § 2202
5 U.S.C.A. §§ 555(e), 706(2)(A)
(Sup. Ct. R. 10(c))
(Sup. Ct. R. 10(b)).

18
16, 17, 20
16, 20

1

PETITION FOR WRIT OF CERTIORARI
Alice Guan respectfully petitions for a writ of certiorari to review the
judgments of the Supreme Court of Virginia which based on merits affirmed and
completely agreed with circuit court stating there is no error in circuit court’s
ruling.

OPINIONS BELOW
Petition for rehearing en banc was time filed. No order denying petition for
rehearing en banc was issued. An order denying a petition for rehearing (2-A) is
unreported. The judgement of the Supreme Court of Virginia (l-A) is unreported.
The circuit court’s order (3-A) is unreported.

BASIS FOR JURISDICTION IN THIS COURT
The judgment of the Supreme Court of Virginia was entered on January 11,
2021. A timely petition for rehearing en banc was filed. Order denying a petition for
rehearing was dated on March 26, 2021. This Court’s jurisdiction rests on 28 U.S.C.
§1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS AT ISSUE
The freedom of expressive association in both the Fourteenth and First
Amendment.

2

U.S. Const, amend. I provide in relevant part, “Congress shall make no law
respecting an establishment of religion, or prohibiting the free exercise thereof) or
abridging the freedom of speech, or of the press! or the right of the people peaceably
to assemble, and to petition the Government for a redress of grievances.
U.S. Const, amend. XIV provides in relevant part, “No State shall make or
enforce any law which shall abridge the privileges or immunities of citizens of the
United States! nor shall any State deprive any person of life, liberty, or property,
without due process of law! nor deny to any person within its jurisdiction the equal
protection of the laws.”
U.S. Const, art. I provide in relevant part, “No State shall enter into any
Treaty, Alliance, or Confederation! grant Letters of Marque and Reprisal! coin
Money! emit Bills of Credit! make any Thing but gold and silver Coin a Tender in
Payment of Debts! pass any Bill of Attainder, ex post facto Law, or Law impairing
the Obligation of Contracts, or grant any Title of Nobility.”
U.S. Const, art. Ill provides in relevant part, “The judicial Power shall extend
to all Cases, in Law and Equity, arising under this Constitution, the Laws of the
United States, and Treaties made, or which shall be made, under their Authority! to all Cases affecting Ambassadors, other public Ministers and Consuls! - to all
Cases of admiralty and maritime Jurisdiction! - to Controversies to which the
United States shall be a Party! — to Controversies between two or more States! between a State and Citizens of another State! - between Citizens of different
States, - between Citizens of the same State claiming Lands under Grants of

3

different States, and between a State, or the Citizens thereof, and foreign States,
Citizens or Subjects.”
Civil liberties as established by the Constitution (the Bill of Rights) on “free
speech, privacy, right to remain silent, right to be free from unreasonable searches,
right to a fair trial, right to marry, right to vote.”
Title VII of the Civil Rights Act provides in relevant part, “No person
employed by a company covered by Title VII, or applying to work for that company,
can be denied employment or treated differently with regard to any workplace
decision on the basis of perceived racial, religious, national, sexual, or religious
characteristics. No employee can be treated differently based on his or her
association with someone who has one of these protected characteristics.
Additionally, employment decisions may not be made on the basis of stereotypes or
assumptions related to any protected characteristic. For example, it is unlawful for
a supervisor to refuse to promote a Vietnamese person to a management position
because he or she believes that Asian people are not good leaders.”
28 U.S.C. § 2201(a) provides in relevant part, “any court of the United States,
upon the filing of an appropriate pleading, may declare the rights and other legal
relations of any interested party seeking such declaration, whether or not further
relief is or could be sought. Any such declaration shall have the force and effect of a
final judgment or decree and shall be reviewable as such.”

4

28 U.S.C. § 2202 provides in relevant part, “Further necessary or proper
relief based on a declaratory judgment or decree may be granted, after reasonable
notice and hearing, against any adverse party whose rights have been determined
by such judgment.”

INTRODUCTION
Petitioner Alice Guan is the owner, the employee, the President and the
CEO, the Secretary and the Treasure of a government consulting company she
founded in 1996. The company’s annual revenue increased to $16M by 2006.
In 2008, Alice Guan sold 49% of her 100% stock to the Respondent, Bing Ran
for $0.1 per share and named Bing Ran as a CEO and Chairman of the board. That
sale was documented in a contract (9-A) between Petitioner and Respondent, a
contract the state circuit judge incorporated into their decree of divorce by the
operation of Virginia State law in 2016 (13-A).
The same contract (9-A) states only Petitioner and Respondent can serve as
the members of the board of directors! Petitioner is the President and the Secretary!
Respondent is the CEO and Chairman of the Board! Petitioner shall delegate
management function to the Respondent, but Petitioner retains veto right to
Respondent’s decisions! it takes a certain percentage of stock voting to remove the
management delegation or to remove any one of them from their positions. Those
provisions in the contract are not dependent on stock ownership.

5

In 2018, Respondent himself voted to remove management function
delegation to him and voted to remove himself from all positions and from the board
and then he completely departed from the company. Petitioner voted in agreement.
When Petitioner performed the management function she used to delegate to
the Respondent, Respondent sued Petitioner by filing a petition for rule to show
cause in their divorce case and sought injunctive relief against Petitioner and
sought to prevent her from managing or controlling of the company, sought to
restrain her from having any physical access to the company’s offices or properties,
sought to restrain her from having any contact with company employees, attorneys
and/or clients, sought to demand the return of $2.3M loans she took from the
company per IRS code which is her own fund stored at the company’s investment
account from the accumulation over 10 years from her share of company’s profit for
which she has already paid income tax to IRS. Petitioner petitioned the same court
in the same case seeking the court enforce the contract and injunct Respondent
from interfering with her managing and controlling the company and sought for
declaratory relief. State circuit court gave 2% of Petitioner’s stock to Respondent
without notice and without due process, dismissed Petitioner’s petition without due
process, ruled with Respondent’s petition, enjoyed Petitioner from representing to
the 3rd party that she is the 51% majority shareholder until further order of the
court (7-A, 3-A). State supreme court ruled there was no error in state circuit
court’s judgement and affirmed in a judgement that contains 4 lines of text (l'A).

6

This petition constitutes a present and immediate injury by creating
contradictions with Constitution and federal laws in violation of Petitioners’ rights
pursuant to the United States Constitution’s First Amendment, 14th Amendment,
Due Process Clause, Contracts Clause, Title VII of the civil rights Act, fundamental
right of civil liberties, Right of Freedom of Association, rights of Anti-Discrimination
Act, rights per IRS Codes, rights of freedom of speech, freedom of association,
freedom of expression, and freedom of movement, Equal Property Protection
Act/Clause, her right per state law that is protected by Federal laws, her rights to
her freedom over majority portion of her productive time because the lower court
locked Petitioner down permanently until further court order and banned her from
going to her own workplace, from association or interaction with anyone in her
company, from any form of speech and expression in her own company, which span
over a significant amount of time and taking up a significant portion of her life for
her to be in a restrained state.
The constitutional issues and federal issues raised by this Petition reaches far
beyond petitioner herself and affect any party who has contract created by state law
and protected by federal law, affect .3/27person who is to be restrained against their
will and whose freedom of speech, freedom of expression, freedom of movement and
freedom of associate is deprived, affect anyperson whose property is to be taken
without notice and without due process, affect any state or federal appellant ruling
affirming lower court decision with merit without offering any opinion which is a
practice becoming widespread.

7

The decision of the state courts is inconsistent with this Court’s precedents
and is contradicting the holdings of other state and circuit courts. The state courts’
rulings will negatively affect individuals in the United States who face the
hardships in trying to maintain their federal rights.

STATEMENT OF THE CASE

The state circuit judge held that Petitioner lacked standing in the contract that
the same circuit judge incorporated into the divorce of decree by the operation of
Virginia state law, therefore he dismissed Petitioner’s petitions for a Declaratory
relief without due process. After circuit judge took 2% of Petitioner’s stock and gave
it to Respondent and enjoyed Petitioner from representing she is 51% owner until
further court ruling without notice and without due process, he restrained her from
any physical access to her corporate offices and spaces and restrained her from any
contact with her employees and attorneys and/or clients until further order of the
court without due process, he also removed Petitioner’s own $2.3M without due
process. On appeal, assignments of error on every sentence of the May 22, 2016
order (3'A) were established. Prior to Virginia state supreme court issued its
judgement, it provided an opportunity for the Petitioner for an oral argument.
Petitioned argued, as shown in Appendix 61*A through 66\A in front of the
Honorable William C. Mims, the Honorable Stephen R. McCullough, the Honorable
Leroy F. Millette, and stated that:

8

1. the lower court’s order has violated the 1st and the 14th Amendments of the
Constitution.
2. the lower court’s order has violated Title VII of the civil rights Act.
3. the lower court’s order has infringed on the fundamental civil rights, civil
liberties.
4. the lower court egregiously deprived Petitioner’s rights of freedom of speech,
freedom of association, freedom of expression, and freedom of movement.
5. the lower court egregiously deprived Petitioner’s own property of 2% stock
and $2.3M and her ability and her rights to protect her property and her
investment in her company, without notice and without due process.
6. the lower court deprived her right that is guaranteed by the amendment
which is the divorce decree established by the state law which is protected by
the federal law, without due process.
7. the lower court altered the divorce decree, which is established by the state
law, which is protected by the federal law, without due process and without
both parties’ consent.
8. the lower court violated the Constitution’s Contracts Clause.
9. The lower court locked Petitioner down permanently until further court order
and banned her from going to her own workplace, from association or
interaction with anyone in her company, from any form of speech and
expression in her own company, which span over a significant amount of time

9

and taking up a significant portion of her life for her to be in a restrained
state.
10. Petitioner stated that- “These are all matters with public importance. Those
are matters of interpretation of Justice to all citizens in the United States.”
Despite those federal questions sought to be reviewed were raised in front of the
3-justice panel in the Supreme Court of Virginia, Supreme court of Virginia
affirmed the lower court judgment and deemed there was no error in the state court
(1-A).
On Petition for Rehearing En Banc, Petitioner raised the Federal questions
again (67A), stating the lower court’s order and Supreme Court of Virginia’s January
11, 2021 order have created a contradiction with Constitution’s 1st Amendment and
14th Amendment, with the Right of Freedom of Association, with Title VII of Civil
Rights Acts, with Anti-Discrimination Act, and with IRS Codes. Petitioner further
stated that these orders set a precedence which unintentionally not only created an
inconsistency with the fundamental doctrines and laws, but they can also lead to
severe consequences to people in the US without just and contrary to these longexisting and robust Laws. Nevertheless, Supreme court of Virginia issued an order
denying Petition for Rehearing (2-A).
Thus, the state supreme court essentially adopted the District Court’s
findings and rulings in opposition to well-established laws when it found there is no
error and affirmed the decision. For several reasons, the state supreme court’s
decision should not stand.

10

First, the decision in the state court departed from this Court’s holdings and
created a conflict between states and circuits and administrative proceeding
requirements. In particular, the Supreme court of Virginia ruled on merit without
offering any opinion, has created a precedent that deprives personal property
without notice and without due process; deprives a person’s freedom of speech,
freedom of movement, freedom of expression and freedom of association without due
process,' deprives litigant’s personal assets without equal protection, permit a
contract established by the state law be abolished without due process; dismiss
petition for declaratory judgment without due process; discriminated litigant in the
workplace, and deprived Petitioner’s liberty without substantive due process. In
the context of the Contracts Clause, Notice and Due Process Clause, other circuits
and states have determined that infringement of freedom, deprivation of property,
dismissing petition for declaratory relief and abolish or alter a contract between two
parties that are enabled into a court order by the operation of state law must go
through constitutionally valid procedural due process. But here, the state courts
determined that such contact can be terminated by the state courts without cause
or due process or concurrence by both parties, likewise, personal assets can be
removed, freedom can be restrained, declaratory relief can be denied and dismissed.
In the context of the First Amendment and the 14th, the state courts concluded that
not only Petitioner cannot manage or control the company per the contract terms,
she has to be restrained endangering her physically and infringe her speech and
expression rights and association rights. Other courts form precedents that state

11

created contract can not be unilaterally erased by the court and that infringement
in personal freedom is a violation of federal law in cases indistinguishable from the
present action.
Second, allowing state court or any federal court to freely abolish a state law
enacted contract over the objection of a party (parties), especially contracts that
create protected property and personal interests such as the decree of divorce in this
case, and ahowing state court or any federal court to remove a litigant’s freedom
and assets, and deny the litigant’s request for declaratory judgment relief, creates a
threatening situation ample for abuse and oppression and harassment by the court
system such as in this case. Most especially, when a party’s personal and property
and pecuniary rights are written into such a contract, that right is protected by the
state law and the process of maintaining or removing such rights are protected by
the federal law, letting state court or federal court unilaterally void such a contract,
delete those rights, impose restraints on personal freedom creates a situation that is
completely contrary to the intended function of the court.

Facts and Procedure History
Aforementioned text has already stated, perhaps more than once, the critical
facts and the key procedural history in the state courts. Court orders speak for
themselves and are clear evidence of the damages and injuries they have caused
Petitioner. They basically not just reduced her, but destroyed her, her careers, her

12

properties, her interests, her rights, and her ability to protect her company ancLhe:
ability to build her company. They changed Petitioner from a person who can lead
and control her company to a person who cannot approach company premise, can
not utter a word or a letter to anyone in the company, cannot in any way maintain
any association with anyone in the company, a company she founded, established,
and prospered through her leadership and management capabilities.
AdSTM had been a very successful company, winning awards from DOE and
DOD under Petitioner’s leadership and steadily grew its revenue year after year. It
has been profitable.
But since state courts deprived all of Petitioner’s rights in AdSTM, there is
hardly any profit left at the years’ end from the contract revenue generation, and
her employee employment was turned into a 1099 under which the same income of
$150,000 per year turned into a much less net income due to the much higher tax
rate.
From 2008, the year Petitioner sold 49% stock to Respondent, through 2018,
AdSTM’s financial is simple: revenue

expenses = profit, all profits is split

equally between Petitioner and Respondent according to the Amendment. During
this time period, AdSTM generated revenue of about $14M - $16M per year with
profit margin between 3% to at least 8%. AdSTM’s profit is estimated to be about
$825,000 per year with the total estimated profit AdSTM made is about

13

$7,5000,000, about $3,750,000 of which is Respondent’s priyate_pmperty-.-abQ.ut.
$3,750,000 of which is Petitioner’s private property.
State circuit court through two previous trials found that Respondent’s
$3,750,000 property has already been paid to Respondent, only a small portion of
Petioner $3,750,000 was paid to her with the remaining portion kept in AdSTM’s
investment accounts.
Discovery in state court trials found, Respondent even took some of
Petitioner’s private property from AdSTM’s investment account as his own,
resulting in a balance of $2.3M of her property still kept in AdSTM.
Respondent categorized most of the money he took over 10+ years as loans to
himself to avoid equal payment to Petitioner per the Amendment. State circuit court
agreed that those are proper loans even though Respondent did not have promissory
notes for the majority of the loans he took, and he never returned any back to
AdSTM.
During trials, Respondent testified to the following loans that he paid himself
without any promissory notes: about $550K prior to October 2014, $1,431 in Jan
2015, $20,000 in March 2015, $70,000 and $9,193 in April 2015, $168,328 in June
2015, $455,879 in July 2015, $10,000 in October 2015, $811,727 in Feb. 2016,
$301,430 in Oct 2016, $346,410 in July 2017. Total is $2,744,000. The legal effect

14

of the lower court’s and the Court of Appeal’s j rdersjdeemecLthose-are Tegitimate
loans and those loans continued to remain as Respondent’s personal property.
After Respondent removed himself completely from AdSTM in 2018,
Petitioner borrowed $2.3M of her own money from AdSTM that was stored in
AdSTM accounts. State court order demanded the return of all of it, even after she
have already returned some installment per the promissory notes established per IRS
code. She received completely different legal treatment from the state court on
situations that are similar to what Respondent created even though she actually had
promissory notes documents and she already returned a portion of the loans to
AdSTM per the promissory notes.
Appendix 13-A is an order in which state circuit court used Respondent’s
expert report to calculate money owed to Petitioner. Respondent’s expert made
various assumptions in his report. In one portion of that report, Respondent’s expert
made an assumption of Respondent being 51% owner for the sake of an exercise of
his calculation, but state court did not adopt any data from that portion of the report.
13-A did not rule Respondent is 51% owner. That litigation was closed after full
circle of appeal and remand completed.
Then in 2019, in the litigation Respondent filed in the same divorce case on
disputes on the decree which was already conformed to the Amendment, without

15

notice and without due process, one February 27, 2019. at the moment_wfren_thejudge was signing the pre-typed order, he added, by handwriting: Respondent is 51%
thus made Petitioner a 49% owner, without providing Petitioner any compensation
of the stock he transferred to Respondent right at the bench. 7-A.
Concurrently in that case, state circuit court refused to provide due process for
Petitioner’s petition for declaratory judgement relief and dismissed and denied her
petition.
State circuit court then used that stock transfer as the basis to negate all the
provisions in the Amendment that were designed to be independent from stock
percentage, as evidenced in the orders and as admitted by defendants in the district
case, the very defendants who are now illegally controlling the company. 80-A.
The next move the state circuit court made was to completely make the
Amendment disappear, to completely make Petitioner disappear from AdSTM with
the most egregious and illegal restraints, discriminating her, all done without
constitutional and without adequate due process.
The rest of what happened have been discussed in the earlier sections and are
self-explanatory by the orders of the courts contained in the Appendix.

REASON FOR GRANTING THE PETITION

16

This petition should be granted because VirginiaSupreme-Caurt-have
decided an important question of federal law that has not been, but should be,
settled by this Court (Sup. Ct. R. 10(c)) and has decided important federal questions
in a way that conflicts with relevant decisions of this Court (Sup. Ct. R. 10(c)), and
Virginia Supreme Court has decided important federal questions in a way that
conflicts with the decision of another state court of last resort or of a United States
court of appeals (Sup. Ct. R. 10(b)).
Virginia Supreme Court’s judgment will have far reaching negative impact.
It gives courts the power to deprive private citizen’s private property without notice
and without due process, to modify contracts and to impose restriction on freedom of
association, freedom of speech, freedom of movement without due process, to
damages any party whose rights are ensured by any decree or court order that is
established by state law and protected by federal laws, to affirm and find no error in
lower court’s ruling without offering any opinion, to discriminate, to disallow
declaratory judgement relief where there is controversy dispute regarding contract,
delete and make disappear a contract without due process, deprive liberty without
substantive due process. This Court should review, and set aside, that judgement
which will provide critical guidance to all lower courts, both state and federal,
regarding the scope of standing regarding the prior listed and aforementioned and
later stated constitutional and statutory provisions at issue.
A. Virginia Supreme Court have decided an important question of federal law
that has not been, but should be, settled by this Court (Sup. Ct. R. 10(c))

17

Virginia Supreme Court’s 4~Line 49 Words Judgement to Affirm and _to_S.tate_bvMerit that There Is No Error in the Lower Court While Offering No Opinion (l-A)
Violated Petitioner’s Constitutional Rights and It Is an Important Question of
Federal Law that Has Not Been but Should Be Settled by This Court (Sup. Ct. R.
10(c)).
As complicated and as wide-range impact the state circuit judgement imparts (3A), and as expansive the federal questions raised in the oral argument by the
Petitioner (61-A), Virginia Supreme Court’s 4-Line 49 Words Judgement to Affirm
and to State by Merit that There Is No Error in the Lower Court While Offering No
Opinion (l-A) created a continuous and effective deprivation of Petitioner’s federal
rights. The Virginia Supreme Court’s 4-Line 49 Words Judgement in itself
departed from equal protection and infringed constitutional rights. Such practice
may be common in some courts, but its essence and its impact likely have negated
the principal of justice for a long time unattended.
This likely is also a violation of due process, especially given the fact that
what the Virginia Supreme Court affirmed and found no error in is a circuit
judgment that is also very much void of any opinions (3-A) when that judgement
determined several extremely critical and life changing injunctions and commands.
Due process does not exist in these instant instances.
Laws governing agency actions do provide a guiding fight such as when
certain district courts have evaluated similar situations with the related law as in
“In evaluating agency actions under the Administrative Procedure Act's (APA)

18

arbitrary and capricious standard, the court must be satisfied that_the_ageney_ha&
examined the relevant data and articulated a satisfactory explanation for its action
including a rational connection between the facts found and the choice made. 5
U.S.C.A. § 706(2)(A).” When an agency has failed to provide a reasoned explanation
for an action, or where the record belies the agency's conclusion, the court must
undo its action.” Especially in definitive command that “An agency must explain
why it decided to act as it did.” And “In reviewing an agency's decision, the court is
not free to substitute its judgment for that of the agency.” 5 U.S.C.A. § 706(2)(A).
Iaccarino v. Duke. 327 F. Supp. 3d 163 (D.D.C. 2018) which also stated- “The
fundamental principle that an administrative agency must set for its reasons for a
decision is indispensable to sound judicial review. An agency decision would be
arbitrary and capricious if it is not supported by substantial evidence because it is
impossible to conceive of a nonarbitrary factual judgment supported only by
evidence that is not substantial in the Administrative Procedure Act (APA) sense. 5
U.S.C.A. S 706(2)(A).” and in ““Fundamental” requirement of administrative law is
that an agency set forth its reasons for decision; agency's failure to do so constitutes
“arbitrary and capricious” agency action.” 5 U.S.C.A. §§ 555(e), 706(2)(A). Olivares
v. Transportation Sec. Admin.. 819 F.3d 454 (D.C. Cir. 2016).
The damaging effect of Supreme Court of Virginia’s Judgment (l-A) is such
type of a judgement to affirm and to rule by merit that there is no error in lower
court’s judgment with no opinion that allows both the appellant court and the lower
court to arbitrarily decide on issues with no basis, which often can, and in this case

19

did, deprive state rights and federal rights of a litigant in a wav thatis^outrageous
This increases the chances of relaxed and trivial treatment of a legal case, to the
point of committing intentional or malicious errors, all the way to make occurrences
of corruptions more possible and less detectable in events as pled in the case as
shown in 17-A and 39-A.
Any litigant has the constitutional rights for a procedural due process, equal
protection and the right for justice even in this aspect of judicial process and
proceedings as in how the supreme court of Virginia ruled. In additional to circuit
court deprived Petitioner’s many rights as seen in 3-A, 1-A robbed her again of her
rights for procedural due process, equal protection and the right for justice. Such
practice may occurs often in both states’ and federal appellant courts. If lack of
resources is the fundamental reason for such practice, then the legal system allowed
resource issue to infringe federal right which is another violation of rights.
Litigant relies on appellate court to correct the errors made in the lower court. This
aforementioned practice has eroded public trust, at least in this case, likely in many
other cases as well, when such practice is allowed to continue.
Supreme court of Virginia ruled on merit without offering any opinion, has
created a precedent that deprives personal property without notice and without due
process; deprives a person’s freedom of speech, freedom of movement, freedom of
expression and freedom of association without due process; deprives litigant’s
personal assets without equal protection, permit a contract established by the state
law be abolished without due process; dismiss petition for declaratory judgment

20

without due process? discriminated litigant in the workplace-_and~deurivedPetitioner’s liberty without substantive due process.
This aspect of this petition for writ should be granted because Supreme Court
of Virginia’s judgement and how that judgement is documented have decided an
important question of federal law that has not been, but should be, settled by this
Court (Sup. Ct. R. 10(c)).
B. Supreme Court of Virginia has decided several important federal questions in
a way that conflicts with relevant decisions of this Court (Sup. Ct. R. 10(c)),
and Virginia Supreme Court has decided several important federal questions
in a way that conflicts with the decision of another state court of last resort or
of a United States court of appeals (Sup. Ct. R. 10(b)).
Petitioner has personal interest, property interest, pecuniary interest derived
from the Decree of divorce that has been conformed to the Amendment by the
operation of Virginia state laws. Petitioner’s personal interest, property interest,
and pecuniary interest including employment, opportunity for advanced education
paid by her company, reputation of holding the officer and board positions and
authority to do business with clients, physical well-being and health, benefit from
her company, personal property, money, etc., are sufficiently recognizable to
demand due process protection. Nelson v. Colorado (2017). Board of Regents of
State Colleges v. Roth (1972); Roth. Stotter v. University of Texas at San Antonio
(5th Cir. 2007). Goss v. Lopez (1975). Davidson v. Cannon (1986). Daniels v.
Williams (1986). Mathews v. Eldridge (1976). Goldberg v. Kelly (1970). Hightower

21

v. City of Boston (1st Cir. 2012. San Geronimo Caribe Project. Inc, v-Ace-vedoiVila
(1st Cir. 2012).
State courts’ action has deprived Petitioner of the recognized liberty and
property interest absent sufficient process surrounding the deprivation.
This Court has provided standing of the federal laws that are referenced in this
Petition. Supreme Court of Virginia’s judgement created inconsistencies and
contradicted the standings held by this Court, by another state court of last resort
and by United States court of appeals. Prior to the ruling by the Supreme Court of
Virginia, claimants in the Virginia and in the US were nearly certain of how their
federal rights can be protected. Supreme Court of Virginia’s judgement eroded that
trust and faith to a point such that a claimant in any court can not rely on the
judicial proceedings to protect their interests and rights that are ensured by federal
laws as referenced in this petition. Supreme Court of Virginia’s judgement created
danger across all courts, both state and federal court over a wide range of litigated
issues as demonstrated in this petition. The harm it can cause likely will be
widespread, irrevocable, and continue.
Actual controversy involving contract dispute is destined and should be resolved
by declaratory judgement relief. In this instant case, state circuit court was not
able to provide that relief because if such relief is provided, the court will have no
opportunity to implement what it intended to do- to fabricate a cause to
illegitimately breach an unbreakable contract through an illegitimate logic. State
circuit court’s refusal to provide declaratory judgment remedy by dismissing and

22

denying Petitioner’s request goes directly against other state and federal circuit.
For “a real, substantial, and existing controversy. ... a party to a contract is not
compelled to wait until he has committed an act which the other party asserts will
constitute a breach.” (quoting Keener Oil & Gas Co. v. Consol. Gas Utils. Corp., 190
F.2d 985, 989 (10th Cir. 1951)). “In these situations, relevant Article III
considerations include whether the contractual dispute is real, in the sense that it is
not factually hypothetical; whether it can be immediately resolved by a judicial
declaration of the parties’ contractual rights and duties; and whether ‘the
declaration of rights is a bona fide necessity for the natural defendant/declaratory
judgment plaintiff to carry on with its business.’ ” Maytag, 687 F.3d at 1081.
By the time Petitioner petitioned the state circuit court for declaratory
judgment relief, she has already been harmed by temporary injunctive relief (7-A)
and was continued harmed in her personal, pecuniary and property rights.
Petitioners’ petition for declaratory judgment relief is a matter of law, which court
denied and dismissed in totality. Also, state circuit court’s action which was
affirmed by the supreme court of Virginia in their unilateral removal and
modifications to Petitioner’s contract violated the Contracts Clause, the Due Process
Clause, and the First Amendment, and it went directly against all precedence in all
courts.
Seeking declaratory judgement of the contract is to prevent any permanent
injunction and permanent damages and to prevent ongoing damaging from
occurring. But court’s refusal to provide due process in litigating the declaratory

23

judgment relief is a violation of constitutional rights and a violation of Declaratory
Judgment Act.
The entry of a declaratory judgment in the present case would have
immediately resolved the parties’ controversy. And, most importantly, a declaration
would enable the company to operate according to the contract while parties’
contractual and constitutional rights are protected. State circuit court would not
allow declaratory judgement relief because if it were to allow it, it would not be able
to do the following^
State circuit court helped Respondent to steal 2% of Petitioner’s stock
without notice and without due process and without any compensation. Supreme
Court of Virginia Removed Personal Property valued at 2% of stock share Without
Notice and Without Due Process. Not only such judgement is in violation of federal
laws, it also voids the court’s jurisdiction over Petitioners and over the matter at
hands. “One shall not be condemned in his person or property without notice, and
an opportunity to be heard in his defense.” “In order to give any binding effect to a
judgment, it is essential that the court should have jurisdiction of the person and
the subject-matter.” “Due notice to a defendant is essential to the jurisdiction of all
courts.” Earle v. McVeigh. 91 U.S. 503, 23 L. Ed. 398 (1875). They did so first.
Then:
State court knew there is no way to prevent Petitioner from managing and
controlling AdSTM as well as performing all the management functions she used to
delegate to Respondent after Respondent completely departed from the company,

24

and there will not be enough voting stock from the Respondent to vote her off the
board and off her official positions. So, the state circuit court devised an illegal way
to do away with the Decree which has already conformed to the Amendment, the
contract.
The contract is between Petitioner and Respondent. State circuit courts’ acts
to remove or to change the terms of the contract unilaterally is to change or remove
the contract in which the court is not a party, such change is illegal. Supreme court
of Virginia’s affirmation of the state circuit court’s ruling went again head on with
any and all precedents from states courts and federal circuits.
When decree of divorce was conformed to the contract by having the contract
amending the content in the decree of divorce, the contract promised petitioner to be
always in control of the company she founded and established, to be always on the
board and hold official positions, to be guaranteed a employee position, to have the
power and authority that comes with Provision 5. When the court removed that
contract or altered the terms of the contract, court’s action disturbed or vacated that
promise, which is a decision going head on against the precedents. 7th Circuit held
"... teachers properly relied on a “stable job-security scheme to plan their personal
and professional lives, their investments of time and money, and their retirements”
(in their tenure ship) and held that it is “not fair to change the rules so
substantially when it is too late for the affected parties to change course.” (And such
change was initiated actually by a party to the contract, instead of a none-party in
the instant case.)” notes in parenthesis added. Elliott v. Board of School Trustees of

25

Madison Consolidated Schools, 876 F.3d 926, 934-35 (7th Cir. 2017). Court’s ruling
to eliminate the contract completely erased all of the promises provided by the
contract.
Most outrageously, the state courts lacks standing and lacks the authority to
remove or change the terms of the contract, especially the contract has been
incorporated into the decree of divorce by the operation of state law and become the
operating provisions of the decree through amendment, not through supplementing
the decree, the decree has been conformed to the amendment when the same state
circuit judge ordered so on May 13, 2016. 13-A.
Supreme Court of Virginia affirmed the Altered Decree and the deletion of
the Contract That was Enacted by State Law Without Procedural Due Process and
Held Petitioner Lack Any Standing to Exercise State Law Protected Rights and
Depriving Her Federal Rights.
The state courts’ unilateral removal of Petitioners’ contracts through
utilization of an illegitimate 2% stock transfer, and even if there were a legal 2%
transfer which there were not, contract should still be intact because it is not
dependent on ownership. But courts removed the contract anyway, causing injury
and violation of Petitioners’ constitutional rights. The injury is still present and
will continue into the future.
Having the freedom to go to one’s workplace, to associate with coworkers and
employee, to communicate with clients, to express verbally of opinions and

26

thoughts,

. • •)

are the most basic and fundamental rights of a human being.

Those are the very rights the state courts attacked next.
State court not only restrained Petitioner’s communication which is a
decision that goes head on against free speech precedent through all courts, they
also restrained her freedom of association and freedom of movement. In the present
case, state courts completely cut off Petitioner’s rights of communication to include
communication in all forms creating an Outrageous illegal act. Most of the violation
of freedom of speech in most precedent is prohibiting a portion or to put limitation
on speech. Speech First, Inc. v. Fenves, 979 F.3d 319 (5th Cir. 2020), as revised
(Oct. 30, 2020). And, “If the First Amendment means anything, it means that
regulating speech must be a last - not first 18 - resort.” Thompson v. W. States
Med. Ctr., 535 U.S. 357, 373, 122 S. Ct. 1497, 1507, 152 L. Ed. 2d 563 (2002). In the
instant case, without due process, state court immediately upon Respondent filing
of a Petition in February, installed injunction to restrain Petitioner and to deprive
her of any and all speech right and rights in all forms in communication, such as
emails, etc.
The restraint is a deprivation and violation of Petitioners’ First Amendment
protections that has been causing injuries, is causing injury right now and will
continue cause injuries.
In all actions state courts took against Petitioner, they also caused her be
discriminated in her own workplace, violating the Discrimination Prevention Act.

27

In the final strike, state court deprived Petitioner her $2.3M personal assets
in cash without equal protection. State courts acted contrary to other courts by
abridging the privileges and immunities of Petitioner and deprived her of her
property without due process of law and denied her the equal protection of the law,
in violation of the Fourteenth Amendment to the Constitution of the United States
of America; Kennedy v. Med. Serv. Ass'n of Pennsylvania (No. 2). 39 Pa. D. & C.2d
45, 47 (Pa. Com. PI. 1966).
State court has robed Petitioner half of her awaking hours resulting in
drastic change in her life at her workplace, practically eliminated her from her
workplace. All in all, in the instant case, Petitioner has been deprived of a
recognized and protectable interest in life, liberty, or property. Wilkinson v. Austin
(2005).
State courts discriminated, harassed, removed Petitioner’s personal property
in the amount of $2.3M by treating Petitioner differently from how courts treated
Respondent regarding loans, thereby infringed Petitioner’s rights under “equal
protection of the laws.” State courts’ ruling goes directly contrary with the wellestablished laws and standing. Stilwell v. City of Williams (9th Cir. 2016); Levin v.
Madigan (7th Cir. 2012).
State courts’ judgement also abridged the privileges and immunities of
Petitioners, charting a path in direct opposition of this Court. McDonald v. City of
Chicago (2010).

28

State courts’ judgement also deprived Petitioners’ lifein_the.sense-ofrestraining her in every way to prevent her from her company and from her
employees for the majority portion of a person’s waking hour each day, deprived
Petitioner of her liberty and property without due process of law and deprived
Petitioner of equal protection resulting in not only complete violation of 14th
Amendment, but also went against precedents and standings of all courts. E.g.,
Zinermon v. Burch (1990).
Furthermore, state courts did not follow fundamentally fair procedures before
Petitioner was subjected to damages and injunctive relief, before petitioner was
deprived of property and liberty interest. State court also infringed substantive due
process in depriving Petitioner’s liberty regardless of procedures used, the very
liberty of going to workplace, to associate with team members and employees, to
interact with clients, to have the ability to express, the liberty that is deeply rooted
in this nation’s history and tradition by default and implicit in the concept of
ordered liberty. State courts’ judgment on prohibition is so outrageous and
constitutionally arbitrary that is so egregious as to shock the conscience.
State court orders are also in contrary with the following standing or
precedents^

The said Act abridges the privileges and immunities of Plaintiffs
and deprives them of their property without due process of law and denies to them
the equal protection of the law, in violation of the Fourteenth Amendment to the

29

Constitution of the United States of America; “(d) The said Act deprives the
Plaintiffs of their liberty and freedom of contract and of their right to acquire,
possess, protect, use and enjoy their property, in violation of Article I; Kennedy v.
Med. Serv. Ass'n of Pennsylvania (No. 2), 39 Pa. D. & C.2d 45, 47 (Pa. Com. PI.
1966).

Property interests protected by procedural due process extend well beyond
actual ownership of real estate, chattels or money, and due process protection is
required for deprivations of liberty beyond the sort of formal constraints imposed by
the criminal process. U.S.C.A.Const. Amend. 14. Bd. of Regents of State Colleges v.
Roth. 408 U.S. 564, 92 S. Ct. 2701, 33 L. Ed. 2d 548 (1972)

Where a person's good name, reputation, honor or integrity is at stake
because of what the government is doing to him, notice and an opportunity to be
heard are essential. U.S.C.A.Const. Amend. 14. Bd. of Regents of State Colleges v.
Roth, 408 U.S. 564, 92 S. Ct. 2701, 33 L. Ed. 2d 548 (1972)

Fourteenth Amendment's procedural protection of property is a safeguard of
security of interests that a person has already acquired in specific benefits.
U.S.C.A.Const. Amend. 14. Bd. of Regents of State Colleges v. Roth. 408 U.S. 564,
92 S. Ct. 2701, 33 L. Ed. 2d 548 (1972)

30

To have a property interest in a benefit, a person must have more than an
abstract need or desire for it or a unilateral expectation of it, and he must have a
legitimate claim of entitlement to it, it is a purpose of ancient institution of property
to protect those claims upon which people rely in their daily lives, reliance that
must not be arbitrarily undermined, and it is a purpose of the constitutional right to
a hearing to provide an opportunity for a person to vindicate those claims.
U.S.C.A.Const. Amend. 14. Bd. of Regents of State Colleges v. Roth. 408 U.S. 564,
92 S. Ct. 2701, 33 L. Ed. 2d 548 (1972)

Property interests are not created by the Constitution; rather, they are
created and their dimensions are defined by existing rules or understandings that
stem from an independent source such as state law, rules or understandings that
secure certain benefits and that support claims of entitlement to those benefits.
U.S.C.A.Const. Amend. 14. Bd. of Regents of State Colleges v. Roth. 408 U.S. 564,
92 S. Ct. 2701, 33 L. Ed. 2d 548 (1972)

The right to freedom of association is not enumerated in the Constitution, but
arises as a necessary concomitant to the Bill ofRight's protection ofindividual
liberty. This Court has recognized a right to associate for the purpose of engaging in
those activities protected by the First Amendment—speech, assembly, petition for
the redress of grievances, and the exercise of religion. The Constitution
guarantees freedom of association of this kind as an indispensable means of

31

preserving other individual liberties. Roberts v. U.S. Javcees. 468 U.S. 609, 618,
104 S. Ct. 3244, 3249, 82 L. Ed. 2d 462 (1984).

Association does not have to associate for “purpose” of disseminating certain
message in order to be entitled to protections of First Amendment; association must
merely engage in expressive activity that could be impaired in order to be entitled to
protection. U.S.C.A. Const.Amend. 1. Bov Scouts of Am. v. Dale. 530 U.S. 640, 120
S. Ct. 2446, 147 L. Ed. 2d 554 (2000)

First Amendment protects expression, be it of the popular variety or not.
U.S.C.A. ConstAmend. 1. Bov Scouts of Am. v. Dale. 530 U.S. 640, 120 S. Ct. 2446,
147 L. Ed. 2d 554 (2000)

Under the First Amendment, the State may not exclude speech where its
distinction is not reasonable in light of the purpose served by the forum, nor may it
discriminate against speech on the basis of viewpoint. U.S.C.A. Const.Amend. 1.
Christian Legal Soc. Chapter of the Univ, of California, Hastings Coll, of the L. v.
Martinez. 561 U.S. 661, 130 S. Ct. 2971, 177 L. Ed. 2d 838 (2010)

Among rights protected by First Amendment is right of individuals
to associate to further their personal beliefs. U.S.C.A.Const. Amend. 1. Healv v.
James. 408 U.S. 169, 92 S. Ct. 2338, 33 L. Ed. 2d 266 (1972)

32

Right of expressive association—freedom to associate for purpose of engaging
in activities protected by the First Amendment, such as speech, assembly, petition
for redress of grievances, and exercise of religion—is protected by the First
Amendment as necessary corollary of rights that amendment protects by its terms.
U.S.C.A. Const.Amend. 1. McCabe v. Sharrett. 12 F.3d 1558 (llth Cir. 1994)

Individuals, corporations, and other associations generally possess rights
under the First Amendment that are of the same nature and quality. U.S. Const.
Amend. 1. ESI/Emp. Sols.. L.P. v. City of Dallas. 450 F. Supp. 3d 700 (E.D. Tex.
2020)

The Supreme Court has explained the protections afforded by the freedom of
association by recognizing a right to associate for the purpose of engaging in those
activities protected by the First Amendment—speech, assembly, petition for the
redress of grievances, and the exercise of religion. The Constitution
guarantees freedom of association of this kind as an indispensable means of
preserving other individual liberties. Roberts v. United States Jaycees, 468 U.S.
609, 617—18, 104 S.Ct. 3244, 82 L.Ed.2d 462 (1984) (holding that a state
discrimination law which had the effect of requiring the Jaycees to admit women
did not violate the freedom of association). The Supreme Court added that

33

the freedom to associate “plainly presupposes a freedom not to associate.” Id. at 623,
104 S.Ct. 3244.

The Middle District of Pennsylvania has recognized that “[t]he rights of
locomotion, freedom of movement, to go where one pleases, and to use the public
streets in a way that does not interfere with the personal liberty of others are basic
values ‘implicit in the concept of ordered liberty’ protected by the due process clause
of the fourteenth amendment.” Bykofsky v. Borough ofMiddletown, 401 F.Supp.
1242, 1254 (M.D.Pa.1975). Johnson v. City of Cincinnati. 119 F. Supp. 2d 735, 745
(S.D. Ohio 2000), affd. 310 F.3d 484 (6th Cir. 2002)

Whether a particular type of classification is lawful under the Equal Protection
Clause depends both on the group being classified and the activity being regulated:
laws that draw lines distinguishing a suspect class, like those based on immutable
characteristics such as race, alienage, and national origin, or those that affect a
fundamental right will be analyzed under strict scrutiny; with some exceptions, all
others will be reviewed under rational basis scrutiny. U.S. Const. Amend. 14.
ESI/Emn. Sols.. L.P. v. City of Dallas. 450 F. Supp. 3d 700 (E.D. Tex. 2020)

Deprivation of such a property interest is the quintessence of an injury-in-fact
sufficient to create standing under Article III. See, e.g., Cahoo v. Fast Enterprises
LLC, No. 17-10657, 2020 WL 7493103, *10, _ F. Supp. 3d _ (E.D. Mich. Dec. 21,

34

2020) (deprivation of property interest in unemployment benefits constituted injuryin-fact); Swepi, LP v. Mora County, N.M., 81 F. Supp. 3d 1075, 1156 (2015) (holding
that “[deprivation in a property interest’s value and the inability to exploit one’s
property interest is sufficient injury in fact”); Zavolta v. Lord, Abbett & Co., No.
2:08 cv04546, 2010 WL 686546, *5 (Feb 24, 2010) (explaining in the trust context
that a property interest is “the sin qua non of Article III standing”); Experian
Marketing Solutions, Inc. v. U.S. Data Corp., No. 8-09CV24, 2009 WL 2902957, *6
(Sep. 9, 2009) (invading property interest in trademark satisfied injury-in-fact
requirement).

Finally, state circuit court violated the Fourteenth Amendment by voiding
substantive Due Process and Failure to Act. I have reported to the circuit court,
that my rights have been violated, but it stayed silent and failed to act. Its inaction
is implicit-but-affirmative encouragement, resulting in the exacerbation of my
harm, risk of injury, subjecting me to harms I would not have faced but for the state
circuit court’s inaction.
Supreme court of Virginia also violated the Fourteenth Amendment by
voiding substantive Due Process and Failure to Act. Post the conduct in the circuit
court, I have reported to the Supreme court of Virginia of those federal rights
violations and the state-created danger and harm and injuries, Supreme court of
Virginia stayed silent and failed to act. Their inaction is also implicit-butaffirmative encouragement.

35

This Court should grant cert to resolve the contrary and contradiction
between this present case and the precedents in federal circuits and other state
courts of the last resort regarding all aforementioned federal questions and
violations of federal laws.
This Court has the power to prevent the wrongful deprivation from
continuing and to remedy the wrongful deprivations that have already occurred. At
this juncture, the only remedy for the injury and damage is the post-deprivation
process which this Court can initiate.
And Most ImportantlyThis Court has the power to provide clarity for individuals in the US who are
struggling and who will struggle to protect their First and 14th Amendment rights
and other federally protected rights.

CONCLUSION
The petition for a writ of certiorari should be granted.

August 23, 2021

36

Respectfully Yours,

Alice Guan, or Yue Guan, pro se
#286
11654 Plaza America Drive
Reston, VA 20190
617-304-9279
AliceGuan202 l@gmail.com

